No. 21-276
IN THE

supreme Court of the Zattiteb Stateo
SAFEHOUSE,
Petitioner,
v.

DEPARTMENT OF JUSTICE, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF AMICI CURIAE OF FOURTEEN CITIES
AND COUNTIES IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,529 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2021.

Colin Casey Hogan
Wilson-Epes Printin Co., Inc.

